                       Closeout Memorandum for Case No. M98020019


On 10 February 1998 we received an anonymous allegation that an NSF Program Director
(PD)' in the Directorate for Engineering, Engineering Research Centers (ERC) Program had
"manipulat[ed]  ... peer review," to improperly favor an NSF ERC granteeY2by omitting
negative comments from the site visit reviews.

We examined the ERC grant jackets, and compared the site visit reviewer comments to the
PD's summary and recommendations. We determined that the PD's summary and
recommendations fairly incorporated the comments of the site visit reviewers, 2nd did not
appear to minimize criticism by the site visit team. In addition, we observed that the same
individuals often served on the annual site visit teams. It is unclear why they would
repeatedly agree to serve on the team if they believed that their analysis would be ignored.
Based on this examination, we do not believe that a basis exists for further inquiry into this   .   '


matter.

For these reasons, this case is closed and no further action will be taken.




cc:    Legal
       Investigations
       Assistant Inspector General for Oversight
       Inspector General




                                       Page 1 of 1
